                Department of Veterans Affairs
                Office of Inspector General


                  Office of Healthcare Inspections

Report No. 14-00659-111




    Combined Assessment Program 

             Review of the 

    VA Caribbean Healthcare System 

        San Juan, Puerto Rico 





April 7, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                                   CAP Review of the VA Caribbean Healthcare System, San Juan, PR



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 EHR            electronic health record
                 EOC            environment of care
                 facility       VA Caribbean Healthcare System
                 FY             fiscal year
                 MEC            Medical Executive Committee
                 MH             mental health
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PRC            Peer Review Committee
                 QM             quality management
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                              CAP Review of the VA Caribbean Healthcare System, San Juan, PR



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishments......................................................................................                     2


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     6

  Medication Management.........................................................................................                   9

  Coordination of Care ...............................................................................................            10

  Nurse Staffing .........................................................................................................        11

  Pressure Ulcer Prevention and Management .........................................................                              12

  CLC Resident Independence and Dignity ...............................................................                           14


Appendixes
  A. Facility Profile ....................................................................................................        16

  B. Strategic Analytics for Improvement and Learning ............................................                                17

  C. VISN Director Comments ..................................................................................                    20

  D. Facility Director Comments ...............................................................................                   21

  E. OIG Contact and Staff Acknowledgments .........................................................                              27

  F. Report Distribution .............................................................................................            28

  G. Endnotes ...........................................................................................................         29





VA OIG Office of Healthcare Inspections
                                   CAP Review of the VA Caribbean Healthcare System, San Juan, PR



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
February 3, 2014.

Review Results: The review covered seven activities.                           We    made     no
recommendations in the following three activities:

 Nurse Staffing

 Pressure Ulcer Prevention and Management

 Community Living Center Resident Independence and Dignity

The facility’s reported accomplishments were receipt of funding from the Veterans
Health Administration Innovation Initiative for implementation of a multisensory
environment for dementia care and the caregivers support program.

Recommendations: We made recommendations in the following four activities:
Quality Management: Revise Peer Review Committee membership to ensure sufficient
experienced senior physicians are regular members, and consistently report actions
from peer reviews back to the committee. Require the Surgical Work Group to meet
monthly. Report all critical incidents through the patient incident reporting process.
Ensure that the Blood Utilization Review Committee members from Surgery and
Anesthesia Services consistently attend meetings and that the blood usage review
process includes the results of proficiency testing. Revise the local observation bed
policy to include all required elements.

Environment of Care: Ensure Environment of Care and Administrative Executive Board
Committee minutes reflect deficiencies identified on the locked mental health unit. In
the radiology area, secure cabinets containing contrast agents, and document daily
crash cart checks. Require all mental health unit staff and occasional mental health unit
workers to complete required training. Include police response times in locked mental
health unit panic alarm testing documentation.

Medication Management: Ensure the medication list provided to the patient/caregiver at
discharge is reconciled with the dosage and frequency ordered.

Coordination of Care: Provide patients with correct information on discharge
instructions, and schedule patients’ post-hospitalization outpatient appointments within
the timeframe requested by the discharging physician.




VA OIG Office of Healthcare Inspections                                                        i
                                   CAP Review of the VA Caribbean Healthcare System, San Juan, PR


Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 20–26, for the full
text of the Directors’ comments.) We consider recommendation 13 closed. We will
follow up on the planned actions for the open recommendations until they are
completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                        ii
                                   CAP Review of the VA Caribbean Healthcare System, San Juan, PR



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities:

   	 QM

   	 EOC

   	 Medication Management

   	 Coordination of Care

   	 Nurse Staffing

   	 Pressure Ulcer Prevention and Management

   	 CLC Resident Independence and Dignity

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2013 and FY 2014 through
February 3, 2014, and was done in accordance with OIG standard operating procedures
for CAP reviews.      We also asked the facility to provide the status on the


VA OIG Office of Healthcare Inspections                                                        1
                                   CAP Review of the VA Caribbean Healthcare System, San Juan, PR


recommendations we made in our previous CAP report (Combined Assessment
Program Review of the VA Caribbean Healthcare System, San Juan, Puerto Rico,
Report No. 11-00025-144, April 14, 2011).

During this review, we presented crime awareness briefings for 264 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
205 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                         Reported Accomplishments

Modality Treatment in Recreation Therapy

In 2013, the facility was awarded VHA Innovation Initiative funding to implement
Snoezelen®, a multisensory environmental therapy. This type of therapy incorporates a
specialized selection of sensory equipment and materials to assist patients with
dementia in adapting to their environment.

Caregivers Support Program
In 2013, the facility provided education, counseling, and respite care for 350 caregivers
of severely disabled veterans. The caregivers support program was expanded to the
community based outpatient clinics at Ceiba, Guayama, and Ponce, as over half of all
veterans with caregivers are followed in these clinics.




VA OIG Office of Healthcare Inspections                                                        2
                                          CAP Review of the VA Caribbean Healthcare System, San Juan, PR



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                     Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
 X     The protected peer review process met            Twelve months of PRC meeting minutes
       selected requirements:                           reviewed:
        The PRC was chaired by the Chief of Staff       PRC membership did not include the
          and included membership by applicable            expected experienced senior physicians,
          service chiefs.                                  such as the critical care and emergency
        Actions from individual peer reviews were         department service chiefs.
          completed and reported to the PRC.             Of the 18 actions completed, 9 were not
        The PRC submitted quarterly summary               reported to the PRC.
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       were initiated and completed, and results
       were reported to the MEC.
 NA    Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
          appropriately privileged staff.
        Professional practice evaluation information
          was available for review.




VA OIG Office of Healthcare Inspections                                                               3
                                            CAP Review of the VA Caribbean Healthcare System, San Juan, PR


NM               Areas Reviewed (continued)                                  Findings
       Observation bed use met selected
       requirements:
        Local policy included necessary elements.
        Data regarding appropriateness of
          observation bed usage was gathered.
        If conversions to acute admissions were
          consistently 30 percent or more,
          observation criteria and utilization were
          re-assessed timely.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
       The process to review resuscitation events
       met selected requirements:
        An interdisciplinary committee was
          responsible for reviewing episodes of care
          where resuscitation was attempted:
        Resuscitation event reviews included
          screening for clinical issues prior to events
          that may have contributed to the
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
 X     The surgical review process met selected            The Surgical Work Group Committee met
       requirements:                                        only 4 times in the past 10 months.
        An interdisciplinary committee with
          appropriate leadership and clinical
          membership met monthly to review surgical
          processes and outcomes.
        All surgical deaths were reviewed.
        Additional data elements were routinely
          reviewed.
 X     Critical incidents reporting processes were         In the past 12 months, one critical incident
       appropriate.                                         occurred that was not reported through the
                                                            required process.
       The process to review the quality of entries in
       the EHR met selected requirements:
        A committee was responsible to review
          EHR quality.
        Data were collected and analyzed at least
          quarterly.
        Reviews included data from most services
          and program areas.
       The policy for scanning non-VA care
       documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                    4
                                           CAP Review of the VA Caribbean Healthcare System, San Juan, PR


NM              Areas Reviewed (continued)                                   Findings
 X     The process to review blood/transfusions          Three quarters of the Blood Utilization Review
       usage met selected requirements:                  Committee meeting minutes reviewed:
        A committee with appropriate clinical            Clinical representatives from Surgery and
          membership met at least quarterly to review      Anesthesia Services attended only one of
          blood/transfusions usage.                        three meetings.
        Additional data elements were routinely          The review process did not include results of
          reviewed.                                        proficiency testing.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
 X     The facility met any additional elements          Local policy on the use of observation beds
       required by VHA or local policy.                  reviewed:
                                                          The policy did not include all VHA
                                                            requirements, such as specific psychiatric,
                                                            medical, and surgical conditions appropriate
                                                            for observation bed usage or the hand-off of
                                                            care to subsequent providers.

Recommendations

1. We recommended that the PRC’s membership be revised to ensure that sufficient
experienced senior physicians are regular members.

2. We recommended that processes be strengthened to ensure that actions from peer reviews
are consistently reported to the PRC.

3.   We recommended that the Surgical Work Group meet monthly.

4. We recommended that processes be strengthened to ensure that all critical incidents are
reported through the patient incident reporting process.

5. We recommended that processes be strengthened to ensure that the Blood Utilization
Review Committee members from Surgery and Anesthesia Services consistently attend
meetings and that the blood usage review process includes the results of proficiency testing.

6. We recommended that the local observation bed policy be revised to include all required
elements.




VA OIG Office of Healthcare Inspections                                                                    5
                                          CAP Review of the VA Caribbean Healthcare System, San Juan, PR


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in radiology and acute MH were met.2

We inspected the locked MH, respiratory care, spinal cord, inpatient surgery, surgical intensive
care, intermediate surgical intensive care, and open heart intensive care units and two CLC
units.    We also inspected the emergency department; the radiology area; and the
chemotherapy, MH outpatient, and patient aligned care team clinics. Additionally, we reviewed
relevant documents, conversed with key employees and managers, and reviewed 33 employee
training records (11 radiology employees, 10 MH unit employees, 6 Multidisciplinary Safety
Inspection Team members, and 6 occasional MH unit workers). The table below shows the
areas reviewed for this topic. The areas marked as NM did not meet applicable requirements
and needed improvement. Any items that did not apply to this facility are marked NA.

NM           Areas Reviewed for General EOC                                 Findings
 X     EOC Committee minutes reflected sufficient       Eight months of EOC and 9 months of
       detail regarding identified deficiencies,        Administrative Executive Board Committee
       corrective actions taken, and tracking of        meeting minutes reviewed:
       corrective actions to closure.                    Minutes did not reflect discussion of
                                                           deficiencies identified on the locked MH unit.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
                Areas Reviewed for Radiology
       The facility had a Radiation Safety Committee,
       the committee met at least every 6 months
       and established a quorum for meetings, and
       the Radiation Safety Officer attended
       meetings.
       Radiation Safety Committee meeting minutes
       reflected discussion of any problematic areas,
       corrective actions taken, and tracking of
       corrective actions to closure.


VA OIG Office of Healthcare Inspections                                                                     6
                                             CAP Review of the VA Caribbean Healthcare System, San Juan, PR


NM      Areas Reviewed for Radiology (continued)                              Findings
       Facility policy addressed frequencies of
       equipment inspection, testing, and
       maintenance.
       The facility had a policy for the safe use of
       fluoroscopic equipment.
       The facility Director appointed a Radiation
       Safety Officer to direct the radiation safety
       program.
       X-ray and fluoroscopy equipment items were
       tested by a qualified medical physicist before
       placed in service and annually thereafter, and
       quality control was conducted on fluoroscopy
       equipment in accordance with facility
       policy/procedure.
       Designated employees received initial
       radiation safety training and training thereafter
       with the frequency required by local policy,
       and radiation exposure monitoring was
       completed for employees within the past year.
       Environmental safety requirements in x-ray
       and fluoroscopy were met.
       Infection prevention requirements in x-ray and
       fluoroscopy were met.
 X     Medication safety and security requirements          Contrast agents were stored in an unlocked,
       in x-ray and fluoroscopy were met.                    unattended cabinet.
                                                            Crash cart inspections were not completed
                                                             daily for the last 6 months.
       Sensitive patient information in x-ray and
       fluoroscopy was protected.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Acute MH
       MH EOC inspections were conducted every
       6 months.
       Corrective actions were taken for
       environmental hazards identified during
       inspections, and actions were tracked to
       closure.
 X     MH unit staff, Multidisciplinary Safety              Four MH unit staff and four occasional MH
       Inspection Team members, and occasional               unit workers had not completed training on
       unit workers received training on how to              how to identify and correct environmental
       identify and correct environmental hazards,           hazards, proper use of the MH EOC
       content and proper use of the MH EOC                  Checklist, and VA’s National Center for
       Checklist, and VA’s National Center for               Patient Safety study of suicide on psychiatric
       Patient Safety study of suicide on psychiatric        units.
       units.




VA OIG Office of Healthcare Inspections                                                                       7
                                          CAP Review of the VA Caribbean Healthcare System, San Juan, PR


NM      Areas Reviewed for Acute MH (continued)                           Findings
 X     The locked MH unit(s) was/were in               Documentation of panic alarm testing did not
       compliance with MH EOC Checklist safety          include police response time.
       requirements or an abatement plan was in
       place.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendations

7. We recommended that processes be strengthened to ensure that EOC and Administrative
Executive Board Committee minutes reflect deficiencies identified on the locked MH unit.

8. We recommended that processes be strengthened to ensure that cabinets containing
contrast agents in the radiology area are secured at all times and that compliance be monitored.

9. We recommended that processes be strengthened to ensure that crash cart checks in the
radiology area are documented daily and that compliance be monitored.

10. We recommended that processes be strengthened to ensure that all MH unit staff and
occasional MH unit workers receive training on how to identify and correct environmental
hazards, proper use of the MH EOC Checklist, and VA’s National Center for Patient Safety
study of suicide on psychiatric units and that compliance be monitored.

11. We recommended that processes be strengthened to ensure that panic alarm testing
documentation includes police response times and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                8
                                            CAP Review of the VA Caribbean Healthcare System, San Juan, PR


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.3

We reviewed relevant documents and conversed with key managers and employees.
Additionally, we reviewed the EHRs of 33 randomly selected inpatients discharged on 1 of
3 selected oral antibiotics. The table below shows the areas reviewed for this topic. The area
marked as NM did not meet applicable requirements and needed improvement. Any items that
did not apply to this facility are marked NA.

NM                      Areas Reviewed                                      Findings
       Clinicians conducted inpatient learning
       assessments within 24 hours of admission or
       earlier if required by local policy.
       If learning barriers were identified as part of
       the learning assessment, medication
       counseling was adjusted to accommodate the
       barrier(s).
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
       Providers completed discharge progress
       notes or discharge instructions, written
       instructions were provided to
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
 X     Patients/caregivers were provided a written        Five EHRs (15 percent) did not reflect that the
       medication list at discharge, and the               medication list provided to the
       information was consistent with the dosage          patient/caregiver at discharge had been
       and frequency ordered.                              reconciled with the dosage and frequency
                                                           ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

12. We recommended that processes be strengthened to ensure that the medication list
provided to the patient/caregiver at discharge is reconciled with the dosage and frequency
ordered and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                  9
                                           CAP Review of the VA Caribbean Healthcare System, San Juan, PR


Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.4

We reviewed relevant documents and conversed with key employees. Additionally, we
reviewed the EHRs of 28 randomly selected patients with specific diagnoses who were
discharged from July 1, 2012, through June 30, 2013. The table below shows the areas
reviewed for this topic. The areas marked as NM did not meet applicable requirements and
needed improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                      Findings
       Patients’ post-discharge needs were
       identified, and discharge planning addressed
       the identified needs.
 X     Clinicians provided discharge instructions to     Eight patients received discharge instructions
       patients and/or caregivers and validated their     that contained incorrect and conflicting
       understanding.                                     information on the note template used by the
                                                          facility.
 X     Patients received the ordered aftercare           Seven patients did not have their
       services and/or items within the                   post-hospitalization appointments scheduled
       ordered/expected timeframe.                        within the timeframe requested by the
                                                          discharging physician.
       Patients’ and/or caregivers’ knowledge and
       learning abilities were assessed during the
       inpatient stay.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

13. We recommended that processes be strengthened to ensure that patients are provided with
correct information on discharge instructions.

14. We recommended that processes be strengthened to ensure that patients’
post-hospitalization outpatient appointments are scheduled within the timeframe requested by
the discharging physician.




VA OIG Office of Healthcare Inspections                                                                10
                                            CAP Review of the VA Caribbean Healthcare System, San Juan, PR


Nurse Staffing
The purpose of this review was to determine whether the facility implemented the staffing
methodology for nursing personnel and completed annual reassessments and to evaluate nurse
staffing on three inpatient units (acute medical/surgical, long-term care, and MH).5

We reviewed facility and unit-based expert panel documents and 26 training files, and we
conversed with key employees. Additionally, we reviewed the actual nursing hours per patient
day for 3 randomly selected units—acute medical/surgical unit 5K, CLC unit CLC-1, and MH unit
PAICU—for 50 randomly selected days between October 1, 2012, and September 30, 2013.
The table below shows the areas reviewed for this topic. The facility generally met
requirements. We made no recommendations.

NM                      Areas Reviewed                                      Findings
       The facility either implemented or reassessed
       a nurse staffing methodology within the
       expected timeframes.
       The facility expert panel followed the required
       processes and included the required
       members.
       The unit-based expert panels followed the
       required processes and included the required
       members.
       Members of the expert panels completed the
       required training.
       The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                11
                                          CAP Review of the VA Caribbean Healthcare System, San Juan, PR


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.6

We reviewed relevant documents, 30 EHRs of patients with pressure ulcers (10 patients with
hospital-acquired pressure ulcers, 10 patients with community-acquired pressure ulcers, and
10 patients with pressure ulcers at the time of our onsite visit), and 10 employee training
records. Additionally, we inspected three patient rooms. The table below shows the areas
reviewed for this topic. Any items that did not apply to this facility are marked NA. The facility
generally met requirements. We made no recommendations.

NM                      Areas Reviewed                                    Findings
       The facility had a pressure ulcer prevention
       policy, and it addressed prevention for all
       inpatient areas and for outpatient care.
       The facility had an interprofessional pressure
       ulcer committee, and the membership
       included a certified wound care specialist.
       Pressure ulcer data was analyzed and
       reported to facility executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
       Skin inspections and risk scales were
       performed upon transfer, change in condition,
       and discharge.
       Staff were generally consistent in
       documenting location, stage, risk scale score,
       and date acquired.
       Required activities were performed for
       patients determined to be at risk for pressure
       ulcers and for patients with pressure ulcers.
       Required activities were performed for
       patients determined to not be at risk for
       pressure ulcers.
       For patients at risk for and with pressure
       ulcers, interprofessional treatment plans were
       developed, interventions were recommended,
       and EHR documentation reflected that
       interventions were provided.
       If the patient’s pressure ulcer was not healed
       at discharge, a wound care follow-up plan was
       documented, and the patient was provided
       appropriate dressing supplies.




VA OIG Office of Healthcare Inspections                                                              12
                                           CAP Review of the VA Caribbean Healthcare System, San Juan, PR


NM             Areas Reviewed (continued)                                  Findings
       The facility defined requirements for patient
       and caregiver pressure ulcer education, and
       education on pressure ulcer prevention and
       development was provided to those at risk for
       and with pressure ulcers and/or their
       caregivers.
       The facility defined requirements for staff
       pressure ulcer education, and acute care staff
       received training on how to administer the
       pressure ulcer risk scale, conduct the
       complete skin assessment, and accurately
       document findings.
       The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in pressure ulcer patient rooms.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                               13
                                          CAP Review of the VA Caribbean Healthcare System, San Juan, PR


CLC Resident Independence and Dignity
The purpose of this review was to determine whether VHA facilities provided CLC restorative
nursing services and complied with selected nutritional management and dining service
requirements to assist CLC residents in maintaining their optimal level of functioning,
independence, and dignity.7

We reviewed 14 EHRs of residents (8 residents receiving restorative nursing services and
6 residents not receiving restorative nursing services but candidates for services). We also
observed two meal periods, reviewed nine employee training/competency records and other
relevant documents, and conversed with key employees. The table below shows the areas
reviewed for this topic. Any items that did not apply to this facility are marked NA. The facility
generally met requirements. We made no recommendations.

NM                      Areas Reviewed                                    Findings
       The facility offered restorative nursing
       services.
       Facility staff completed and documented
       restorative nursing services, including active
       and passive range of motion, bed mobility,
       transfer, and walking activities, according to
       clinician orders and residents’ care plans.
       Resident progress towards restorative nursing
       goals was documented, and interventions
       were modified as needed to promote the
       resident’s accomplishment of goals.
       When restorative nursing services were care
       planned but were not provided or were
       discontinued, reasons were documented in
       the EHR.
       If residents were discharged from physical
       therapy, occupational therapy, or
       kinesiotherapy, there was hand-off
       communication between Physical Medicine
       and Rehabilitation Service and the CLC to
       ensure that restorative nursing services
       occurred.
       Training and competency assessment were
       completed for staff who performed restorative
       nursing services.
       The facility complied with any additional
       elements required by VHA or local policy.
            Areas Reviewed for Assistive Eating
                 Devices and Dining Service
 NA    Care planned/ordered assistive eating devices
       were provided to residents at meal times.
 NA    Required activities were performed during
       resident meal periods.




VA OIG Office of Healthcare Inspections                                                              14
                                          CAP Review of the VA Caribbean Healthcare System, San Juan, PR


NM        Areas Reviewed for Assistive Eating                              Findings
         Devices and Dining Service (continued)
 NA    The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                              15
                                           CAP Review of the VA Caribbean Healthcare System, San Juan, PR
                                                                                              Appendix A


                Facility Profile (San Juan/672) FY 2014 through
                                   March 2014a
Type of Organization                                                                      Tertiary
Complexity Level                                                                          1a-High complexity
Affiliated/Non-Affiliated                                                                 Affiliated
Total Medical Care Budget in Millions                                                     $489.2
Number of:
    Unique Patients                                                                      57,509
    Outpatient Visits                                                                    438,641
    Unique Employeesb                                                                    2,919
Type and Number of Operating Beds (January 2014):
    Hospital                                                                             270
    CLC                                                                                  122
    MH                                                                                   30
Average Daily Census (February 2014):
    Hospital                                                                             214
    CLC                                                                                  110.3
    MH                                                                                   27.2
Number of Community Based Outpatient Clinics                                              7
Location(s)/Station Number(s)                                                             Ponce/672B0
                                                                                          Mayaguez/672BZ
                                                                                          St. Croix/672GA
                                                                                          St. Thomas/672GB
                                                                                          Arecibo/672GC
                                                                                          Ceiba/672GD
                                                                                          Guayama/672GE
VISN Number                                                                               8




a
    All data is for FY 2014 through March 2014 except where noted. 

b
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                    16
                                                                   CAP Review of the VA Caribbean Healthcare System, San Juan, PR
                                                                                                                      Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)c




c
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                       17
                                                        CAP Review of the VA Caribbean Healthcare System, San Juan, PR


                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                            18
                                                                                                      CAP Review of the VA Caribbean Healthcare System, San Juan, PR


                                                                         Metric Definitions
 Measure                       Definition                                                                             Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)      A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                                A lower value is better than a higher value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                             A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                   A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                            A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)         A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                          A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                      A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                                 A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                   A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics)                         A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                   A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)      A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics)               A higher value is better than a lower value
 PSI                           Patient safety indicator                                                               A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                       A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                         A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction                A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                   A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                  A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction              A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure                 A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                                A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                    A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                         A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics)             A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                             19
                                   CAP Review of the VA Caribbean Healthcare System, San Juan, PR
                                                                                      Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                             Memorandum

           Date:       March 18, 2014

          From:        Director, VA Sunshine Healthcare Network (10N8)

       Subject:        CAP Review of the VA Caribbean Healthcare System,
                       San Juan, PR

             To:       Director, Bay Pines Office of Healthcare Inspections (54SP)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)


       1. I have reviewed and concur with the CAP Review of the VA Caribbean
       Healthcare System conducted on February 3–7, 2014.

       2. Appropriate action has been initiated and/or completed as detailed in
       the attached report. Thank you!




       Joleen Clark, MBA, FACHE




VA OIG Office of Healthcare Inspections                                                       20
                                   CAP Review of the VA Caribbean Healthcare System, San Juan, PR
                                                                                      Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                             Memorandum

           Date:       March 18, 2014

          From:        Director, VA Caribbean Healthcare System (672/00)

       Subject:        CAP Review of the VA Caribbean Healthcare System,
                       San Juan, PR

             To:       Director, VA Sunshine Healthcare Network (10N08)

       1. I have reviewed and concur with the CAP Review of the VA Caribbean
       Healthcare System, San Juan, PR on February 3–7, 2014.

       2. Appropriate action has been initiated and/or completed as detailed in
       the attached report.




VA OIG Office of Healthcare Inspections                                                       21
                                   CAP Review of the VA Caribbean Healthcare System, San Juan, PR


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the PRC’s membership be revised to
ensure that sufficient experienced senior physicians are regular members.

Concur

Target date for completion: March 31, 2014

Facility response: The Center Memorandum 00-13-83 “Peer Review Process for Quality
Management” was reviewed with the Chief of Staff and routing for concurrences began
Mar 13, 2014. These changes will address the composition of the Peer Review
Committee.

Recommendation 2. We recommended that processes be strengthened to ensure that
actions from peer reviews are consistently reported to the PRC.

Concur

Target date for completion: To initiate on March 28, 2014

Facility response: Service Chiefs and their program support assistants will be engaged
in the process of follow-up of actions. Risk Manager created a tracking grid to follow up
cases. A status report will be provided monthly and discussed in Peer Review
Committee.

Recommendation 3. We recommended that the Surgical Work Group meet monthly.

Concur

Target date for completion: Completed March 7, 2014

Facility response: This work group is chaired by the Surgery Service Chief and
meetings are scheduled to take place the first Friday of each month. This has already
started on March 7, 2014. 


Recommendation 4. We recommended that processes be strengthened to ensure that

all critical incidents are reported through the patient incident reporting process. 


Concur

Target date for completion: Completed Effective Immediately



VA OIG Office of Healthcare Inspections                                                       22
                                   CAP Review of the VA Caribbean Healthcare System, San Juan, PR


Facility response: Once the adverse event occurs, the first person to be aware is
responsible to complete the electronic incident report (Form 10-26-33).

1. Surgery staff completes the critical incident report through the Critical Incident
   Tracking Notification (CITN) system and reports the same event in the Patient Safety
   Electronic Incident Report Program. Once the Patient Safety Manager is aware of
   the event, it will be closely followed up with the Chief of Surgery for timely reporting
   and further actions.

2. 	 Monthly crosscheck will be performed between Surgery Service and Patient Safety
     Office to corroborate that required events are reported through the VACHS
     Electronic Incident Report System.

Recommendation 5. We recommended that processes be strengthened to ensure that
the Blood Utilization Review Committee members from Surgery and Anesthesia
Services consistently attend meetings and that the blood usage review process includes
the results of proficiency testing.

Concur

Target date for completion: May 30, 2014

Facility response: Surgery Service and Anesthesia Section have appointed a
representative to be part of the Blood Bank Committee (BBC). The Center Memo of the
committee is under review with new membership added and will be completed by
May 30, 2014. Proficiency reports are part of the standing agenda of the BBC.

Recommendation 6. We recommended that the local observation bed policy be
revised to include all required elements.

Concur

Target date for completion: April 30, 2014 – In Progress

Facility response: The local observation bed SOP will be changed to a Center
Memorandum under Medicine Service responsibility. The Center Memo will include all
diagnoses required by the VHA Directive 1036 as well as the timeframe for observation.
The Center memo is under revision and the team is working on the implementation of
the different actions to address required elements.

Recommendation 7. We recommended that processes be strengthened to ensure that
EOC and Administrative Executive Board Committee minutes reflect deficiencies
identified on the locked MH unit.

Concur

Target date for completion: March 17, 2014



VA OIG Office of Healthcare Inspections                                                       23
                                   CAP Review of the VA Caribbean Healthcare System, San Juan, PR


Facility response: The deficiencies identified on the locked MH unit are part of the
standing agenda of the Environment of Care (EOC), starting February 2014, as
recommended. First report was presented at the Administrative Executive Board (AEB)
on March 17, 2014 and will be a standard item in the agenda.

Recommendation 8. We recommended that processes be strengthened to ensure that
cabinets containing contrast agents in the radiology area are secured at all times and
that compliance be monitored.

Concur

Target date for completion: February 14, 2014

Facility response: It is the policy of radiology department to assure all medications are
secured at all times. Every cabinet with contrast and medication carts are to be locked
at all times. The Radiology Nurse Supervisor, Radiology nursing staff and technologists
have been reeducated on this policy. Nurse Supervisor will be in charge of monitoring
compliance of this on a daily basis with support of CT and MRI supervisor. Any incident
where a medication cart or cabinet is left unlocked or unattended the Chief of Radiology
Service and Radiology Administrator will be notified. Compliance of the policy will be
reported in quarterly radiology Quality Improvement Committee.

Recommendation 9. We recommended that processes be strengthened to ensure that
crash cart checks in the radiology area are documented daily and that compliance be
monitored.

Concur

Target date for completion: February 7, 2014 – Monitor compliance on the next
Quarterly Service Quality Improvement Committee Meeting May 1, 2014.

Facility response: Radiology Crash Cart Check Policy establishes that all radiology
department crash carts need to be checked daily including weekends and holidays.
Each section supervisor is responsible for evaluating daily the crash cart check list
documentation is in place with signature. The Radiology Nurse Supervisor has been
assigned as person in charge of overseeing all department crash carts documentation
for completeness. Every Monday morning, the Radiology Nurse Supervisor will
evaluate all department crash carts for daily check compliance. Any missing signature
will be immediately informed via email to Radiology Service Chief and Radiology
Administrator for action. In addition, the first Thursday of each month, the Nurse
supervisor will inform Radiology Service Chief and Radiology Administrator status for
crash cart documentation via email. This data will then be collected quarterly and
informed at the Radiology Department Quality Improvement Committee as part of
Performance Measure Tracking. The minutes to these meetings will be sent to Chief of
Staff Office.




VA OIG Office of Healthcare Inspections                                                       24
                                   CAP Review of the VA Caribbean Healthcare System, San Juan, PR


Recommendation 10. We recommended that processes be strengthened to ensure
that all MH unit staff and occasional MH unit workers receive training on how to identify
and correct environmental hazards, proper use of the MH EOC Checklist, and VA’s
National Center for Patient Safety study of suicide on psychiatric units and that
compliance be monitored.

Concur

Target date for completion: July 31, 2014

All new employees were identified by December 31, 2013 who may have the potential
to work in mental health. Education assigned these employees to attend M & H
Checklist Training on December 31, 2013. The employee list for new and existing
employees the may work in mental health will also be verified weekly by the Section
Chiefs. Additionally, refresher training for Facility Management Services (FMS) will be
started effective July 2014 and will be held twice a year. Employee list will be verified
on April 15, 2014.

Recommendation 11. We recommended that processes be strengthened to ensure
that panic alarm testing documentation includes police response times and that
compliance be monitored.

Concur

Target date for completion: February 2014 – and Ongoing

Facility response: Police Service will test panic alarm on a monthly basis and the
response time will be measured on a monthly basis. This requirement will be
documented in the daily operations journal and the monthly alarm test report.

Recommendation 12. We recommended that processes be strengthened to ensure
that the medication list provided to the patient/caregiver at discharge is reconciled with
the dosage and frequency ordered and that compliance be monitored.

Concur

Target date for completion: Completed February 5, 2014 and Monitor ongoing

Providers were educated on February 5, 2014 about the importance of reconciliation of
Medication lists between discharge instructions and the discharge summary. This will
be monitored on an ongoing basis to observe compliance in the performance measure
report. The results of the monitor will be discussed at the Patient Safety Committee.




VA OIG Office of Healthcare Inspections                                                       25
                                   CAP Review of the VA Caribbean Healthcare System, San Juan, PR


Recommendation 13. We recommended that processes be strengthened to ensure
that patients are provided with correct information on discharge instructions.

Concur

Target date for completion: February 4, 2014

Facility response: Discrepancy between English and Spanish Discharge instructions
templates for patients with Congestive Heart Failure were corrected the day of the
findings.

Recommendation 14. We recommended that processes be strengthened to ensure
that patients’ post-hospitalization outpatient appointments are scheduled within the
timeframe requested by the discharging physician.

Concur

Target date for completion: May 15, 2014

Facility response: Ward clerks and their supervisors were trained on March 15, 2014, on
the usage of Appointment management option in VISTA. Scheduling modules and soft
skills training are being taken by ward clerks and their supervisors 24 of 26 clerks
completed all Scheduling modules and soft skills training. Position descriptions were
updated to include this function. Ward clerks will assume the responsibility on
May 15, 2014 to provide follow up appointments to all discharged patients immediately
upon discharge from wards 24/7 based on MD Instructions. Local reporting mechanism
will be in place to identify discharges without follow up appointments within 14 days.
Local report is under development and will be completed by April 15, 2014.




VA OIG Office of Healthcare Inspections                                                       26
                                   CAP Review of the VA Caribbean Healthcare System, San Juan, PR
                                                                                      Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Alice Morales-Rullan, MSN, RN, Team Leader
Contributors            Charles H. Cook, MHA
                        David Griffith, RN
                        Karen McGoff-Yost, MSW, LCSW
                        Carol Torczon, MSN, ACNP
                        David Spilker, Resident Agent in Charge, Office of Investigations
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Darlene Conde-Nadeau, MSN, ARNP
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Jackelinne Melendez, MPA
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                       27
                                   CAP Review of the VA Caribbean Healthcare System, San Juan, PR
                                                                                      Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, VA Sunshine Healthcare Network (10N8)
Director, VA Caribbean Healthcare System (672/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
Resident Commissioner for the Commonwealth of Puerto Rico: Pedro Pierluisi
Delegate to Congress from the U.S. Virgin Islands: Donna M. Christensen

This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                       28
                                               CAP Review of the VA Caribbean Healthcare System, San Juan, PR
                                                                                                  Appendix G

                                                     Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
2
    References used for this topic included:
	 VHA Directive 1105.01, Management of Radioactive Materials, October 7, 2009.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1105.04, Fluoroscopy Safety, July 6, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
    September 11, 2008.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.
	 VA National Center for Patient Safety, “Privacy Curtains and Privacy Curtain Support Structures (e.g., Track and
    Track Supports) in Locked Mental Health Units,” Patient Safety Alert 07-04, February 16, 2007.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
	 VA National Center for Patient Safety, Mental Health Environment of Care Checklist (MHEOCC),
    April 11, 2013.
	 Deputy Under Secretary for Health for Operations and Management, “Mitigation of Items Identified on the
    Environment of Care Checklist,” November 21, 2008.
	 Deputy Under Secretary for Health for Operations and Management, “Change in Frequency of Review Using the
    Mental Health Environment of Care Checklist,” April 14, 2010.
	 Deputy Under Secretary for Health for Operations and Management, “Guidance on Locking Patient Rooms on
    Inpatient Mental Health Units Treating Suicidal Patients,” October 29, 2010.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the National
    Fire Protection Association, the Health Insurance Portability and Accountability Act, the American College of
    Radiology Practice Guidelines and Technical Standards, Underwriters Laboratories.
3
   References used for this topic included:
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Handbook 1907.01.
	 Manufacturer’s instructions for Cipro® and Levaquin®.
	 Various requirements of The Joint Commission.
4
   References used for this topic included:
	 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements,
    July 29, 2009.
	 VHA Handbook 1907.01.
	 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.
5
   The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.



VA OIG Office of Healthcare Inspections                                                                             29
                                               CAP Review of the VA Caribbean Healthcare System, San Juan, PR



6
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
7
  References used for this topic included:
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
	 Centers for Medicare and Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
   Manual, Version 3.0, May 2013.
	 VHA Manual M-2, Part VIII, Chapter 1, Physical Medicine and Rehabilitation Service, October 7, 1992.
	 Various requirements of The Joint Commission.




VA OIG Office of Healthcare Inspections                                                                    30
